HHS/OIG-Audit--"Review of Inpatient Services Performed on Beneficiaries After Disenrolling from Medicare Managed Care, (A-07-98-01256)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Inpatient Services Performed on Beneficiaries After Disenrolling
from Medicare Managed Care," (A-07-98-01256)
May 14, 1999
Complete Text of Report is available in PDF format
(2.15 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was made to determine whether Medicare managed care risk plans
may be selectively enrolling healthier beneficiaries and encouraging sicker
beneficiaries to disenroll. Our review of beneficiaries who disenrolled from
six managed care firms during 1991 through 1996 found that Medicare paid hospitals
$224 million for inpatient services furnished to these beneficiaries within
3 months of their disenrollment. Medicare would have paid $20 million in capitation
payments to these six firms had these beneficiaries not disenrolled, a difference
of $204 million. Moreover, about 18 percent of the expenditures ($41 million)
were paid for beneficiaries who reenrolled in Medicare managed care after receiving
inpatient care under the Medicare fee-for-service system. Recommendations call
for actions the Health Care Financing Administration can begin to take to identify
and preclude this inappropriate manipulation of Medicare's health care system.